No. _______________
IN THE
SUPREME COURT OF THE UNITED STATES
JAMES H. BATES,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Fifth Circuit
DECLARATION OF FILING
NOW COMES Assistant Federal Public Defender Samantha J. Kuhn,
court-appointed counsel for Petitioner James Bates, and states under oath as follows:
1.

On Tuesday, August 10, 2021, I electronically filed the Motion for Leave

to Proceed in Forma Pauperis and Petition for Writ of Certiorari in the abovecaptioned case to the Clerk of the Supreme Court of the United States by using the
Court’s electronic filing system.
3.

Filing these documents in this manner complied with Supreme Court

Rules 12 and 29 and with the time limit in Supreme Court Rule 13, as modified by
this Court’s Order on March 19, 2020, which extended the deadline to file petitions
for writs of certiorari to 150 days from the date of the lower court judgment. This
petition is being filed within 150 days of Mr. Bates’s judgment on April 16, 2021.

I declare under penalty of perjury pursuant to 28 U.S.C. § 1746 that the
foregoing is true and correct.
Executed on this 10th day of August, 2021.
/s/ Samantha Kuhn
SAMANTHA J. KUHN
Assistant Federal Public Defender
Counsel of Record
Office of the Federal Public Defender
500 Poydras Street, Suite 318
Hale Boggs Federal Building
New Orleans, Louisiana 70130
(504) 589-7930
samantha_kuhn@fd.org

2

